                               O ffice of th e Ins pe ctor Ge ne ral


K e nne th D . Nibali
A cting A s s ociate Com m is s ione r
  for D is abil
              ity

A s s is tant Ins pe ctor Ge ne ral
 for Audit

O ffice of D is abil
                   ity Budge ting Is s ue s


Th e attach e d finalm anage m e nt advis ory re port e ntitl  e d, “O ffice of D is abil ity
Budge ting Is s ue s ”(A-13-9 8-72006)pre s e nts th e O ffice of D is abil    ity budge ting
is s ue s th at w e re note d during our audit of th e Pe nns y lvania Bure au of D is abil   ity
D e te rm ination. In th e proce s s of pe rform ing th at re vie w , w e de te cte d ce rtain
conditions w h ich im pact inte rnalcontrol    s ove r budge ting practice s , and th e re fore ,
w arrant m anage m e nt’    s atte ntion.

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to com m e nt, pl    e as e provide your com m e nts
w ith in th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, ple as e cal
                                                                                      lm e or
h ave your s taff contact D onal d Frank l in, D ire ctor, Sys te m s and Financial
M anage m e nt Audits , at (410)9 65-9 706.




                                                     Pam e l
                                                           a J. Gardine r

A ttach m e nt

cc:

Re ading Fil

            e
Subje ct Fil
           e
SSA /O IG/O A /JBEACH A M /cl
                            h /4-20-9 8        9 8-72006-FNL
Re port Fil
          e : A-13-9 8-72006
                                O ffice of th e Ins pe ctor Ge ne ral


K e nne th D . Nibali
A cting A s s ociate Com m is s ione r
  for D is abil
              ity

A s s is tant Ins pe ctor Ge ne ral
 for Audit

O ffice of D is abil
                   ity Budge ting Is s ue s


Th e obje ctive of th is m anage m e nt advis ory re port is to pre s e nt th e O ffice of

D is ability budge ting is s ue s th at w e re note d during our audit of th e Pe nns y l  vania

Bure au of D is abil  ity D e te rm ination (PA -BD D ). As indicate d in our notice to th e
A ge ncy on Augus t 1, 19 9 7, w e are conducting an audit of th e adm inis trative
cos ts cl  aim e d by PA -BD D (CIN: A -13-9 7-52019 ). In th e proce s s of pe rform ing
th is re vie w , w e de te cte d ce rtain conditions w h ich im pact inte rnalcontrol    s ove r
budge ting practice s , and th e re fore , w arrant m anage m e nt’    s atte ntion. Additional
findings on inte rnalcontrolw e ak ne s s e s re l   ate d to PA -BD D adm inis trative cos ts w il
                                                                                                  l
be provide d in a s e parate re port. W e w il     lal s o conduct additionalaudit w ork to
de te rm ine th e e xte nt to w h ich th e s e conditions e xis t in oth e r re gionaloffice s .

BACKGROUND

Th e D is ability Ins urance (D I)program , e s tabl     is h e d in 19 54 unde r titl
                                                                                     e IIof th e
SocialSe curity A ct (th e A ct), is d e s igne d to provide be ne fits to dis abl      e d w age
e arne rs and th e ir fam ilie s in th e e ve nt th e fam il  y w age e arne r be com e s dis able d.
In 19 72, Congre s s e nacte d titl    e XVI, Suppl    e m e ntalSe curity Incom e (SSI)program
(Pub lic Law 9 2-603). Titl      e XVIof th e A ct provide s a national       ly uniform program of
incom e and dis abil   ity cove rage to financial     ly ne e dy individual  s w h o are age d, bl  ind,
or dis abl e d.

Th e SocialSe curity Adm inis tration (SSA )is prim aril      y re s pons ible for im ple m e nting
th e ge ne ralpolicie s gove rning th e de ve l opm e nt of dis abil  ity cl
                                                                           aim s unde r th e D I
and SSIprogram s . D is abil    ity de te rm inations unde r both D Iand SSIare pe rform e d
by an age ncy in e ach State in accordance w ith Fe de ralre gul          ations . In carrying out
its obligation, th e D is abil
                             ity D e te rm ination Se rvice s (D D S)w ith in e ach State
A ge ncy (SA )is re s pons ibl e for de te rm ining th e claim ants ' dis abilitie s and e ns uring
th at ade q uate e vide nce is avail abl e to s upport its d e te rm inations . To as s is t in
Page 2 - K e nne th D . Nibal
                            i

m ak ing prope r dis abil ity de te rm inations , e ach SA is auth orize d to purch as e m e dical
e xam inations , x-ray s , and l aboratory te s ts on a cons ul   tative bas is to s uppl   e m e nt
e vide nce obtaine d from th e cl    aim ants ' ph y s icians or oth e r tre ating s ource s .

SSA pay s D D Ss for 100 pe rce nt of al       l
                                               ow able e xpe nditure s . Each ye ar, SSA
de te rm ine s th e am ount of funding auth orization. O nce approve d, e ach SA is
al ow e d to w ith draw Fe de ralfunds th rough th e Paym e nt M anage m e nt Sys te m
   l
w ith in th e U.S. D e partm e nt of H e al th and H um an Se rvice s to m e e t im m e diate
program e xpe ns e s . At th e e nd of e ach q uarte r of th e Fe de ralfis calye ar (FY),
e ach SA subm its to SSA a "State A ge ncy Re port of O bl        igations for SSA D is abil    ity
Program s " (Form SSA -4513). An advance or re im burs e m e nt for cos ts unde r th e
program m us t be m ade according to O ffice of M anage m e nt and Budge t’           s
Circul  ar A -87, “Cos t Principl  e s for State and LocalGove rnm e nts .” SSA ’      s funding
le ve l
      s are re porte d on th e “State A ge ncy O bl   igationalAuth orization for D is abil   ity
Program s ”(Form SSA -872). SSA ’          s Program O pe rations M anualSys te m (PO M S)
D I39 506.200 (C)(5)s tate s th at: “Itm ay occas ional        l
                                                               y be ne ce s s ary to re duce th e
cum ul  ative q uarte rl  y obl
                              igationalauth orization for ce rtain State age ncie s .” It
furth e r s tate s th at:

    “Ifit be com e s cle ar th at an age ncy w il lnot ne e d, in any pe riod, as m uch
    obl igationalauth ority as h as b e e n auth orize d, th e auth orization w il
                                                                                 lbe
    re duce d. H ow e ve r, s uch re duction w il lbe m ade onl  y afte r advance
    cons ul tation be tw e e n th e re gionaloffice and th e State age ncy.”

A ccordingl
          y, th e s e re ductions are re fl
                                          e cte d on th e Form SSA -872.

O ur m e th odology incl ude d re vie w ing Fe de rallaw s , re gul ations , and ins tructions
pe rtaining to adm inis trative cos ts incurre d by PA -BD D and to th e draw dow n of
Fe de ralfunds . W e h e ld dis cus s ions w ith th e Pe nns y lvania D e partm e nt of Labor
and Indus try and its inte rnalauditors , th e State of Pe nns y l      vania Auditor Ge ne ral  ’s
s taff, and SSA 's Ph il
                       ade l  ph ia Re gionalO ffice . W e al  s o re vie w e d PA -BD D ’
                                                                                         s ge ne ral
pol icie s and proce dure s .

W e re vie w e d inte rnalcontrol  s re garding th e adm inis tration of th e dis abil  ity
de te rm ination activitie s and pe rform e d an e xam ination of th e adm inis trative
e xpe nditure s (pe rs onne l, m e dicals e rvice , indire ct, and alloth e r nonpe rs onne l
cos ts )incurre d and cl  aim e d by PA -BD D for th e pe riod O ctobe r 1, 19 9 3 th rough
Se pte m be r 30, 19 9 6. W e re concil   e d Form SSA -872 re ports and oth e r official
accounting re cords to th e adm inis trative cos ts re porte d by PA -BD D on
Form SSA -4513 re ports for th e pe riod O ctobe r 1, 19 9 3 th rough
Se pte m be r 30, 19 9 6. In addition, w e com pare d th e am ount of Fe de ralfunds
draw n for s upport of program ope rations to th e al         l
                                                              ow able e xpe nditure s .
Page 3 - K e nne th D . Nibal
                            i

Page 4 - K e nne th D . Nibal
                            i

RESULTS

SSA ’s Ph ilade l
                ph ia Re gionalO ffice of D is abil
                                                  ity w as not tim e l
                                                                     y in pre paring
Form s SSA -872 to re duce totalfunding auth orization for ove r $5.7 m il      l
                                                                                ion of
unobl igate d funds from FY’  s 19 9 4 th rough 19 9 6. In addition, be caus e SSA ’  s
PO M S do not pre s cribe a tim e fram e for re ducing s uch auth ority, th e $5.7 m il l
                                                                                        ion
w as s til
         lon th e Form SSA -4513 as of Se pte m be r 30, 19 9 7.

SSA s h ould be gin re ducing th e totalfunding auth orization on Form SSA -872 to
bring PA -BD D obl  igationalauth ority in l
                                           ine w ith actualobligations . Th e bre ak dow n
of funds follow s :

                                       FY 19 9 4          FY 19 9 5           FY 19 9 6
        Auth orize d                $46,221,59 4       $52,424,231         $52,750,667
        D isburs e d/O bl
                        igate d     $44,749 ,79 7      $50,182,227         $50,751,273
        D iffe re nce               $ 1,471,79 7       $ 2,242,004         $ 1,9 9 9 ,39 4


   Th e totaldiffe re nce for th e th re e FY s re pre s e nts $5,713,19 5 in e xce s s
   auth ority.

CO NCLUSIO NS/RECO M M END A TIO NS

In th e ory, th e totalam ounts draw n dow n by PA -BD D for e ach FY s h oul            d not
e xce e d th e totalam ount disburs e d or obl    igate d. A nd, w h il  e w e h ave not ide ntifie d
                                  e h as b e e n viol
ins tance s w h e re th is principl                  ate d, th e re re m ains th e ris k th at th e
$5.7 m il  l
           ion m ay be m is tak e nly draw   n  dow n  by PA -BD D .

O n a broade r pe rs pe ctive is th e is s ue of s ound fis calm anage m e nt practice s . If
SSA ’ s pol icie s re q uire d th at funding auth ority be re duce d w ith in a s pe cifie d tim e
fram e , program m anage rs w oul       d be abl e to e val  uate th e funding le ve l
                                                                                     s of allD D S
ope rations and re al    l
                         ocate funds to ope rations th at m ay be conce rne d w ith
budge tary s h ort fal   l
                         s . As such , w e inte nd to purs ue th is is s ue on a nationw ide
bas is to de te rm ine if e xce s s auth ority is a s y s te m ic proble m or an is ol
                                                                                     ate d
incide nt. Ifw e de te rm ine th e re is a patte rn of e xce s s funding auth ority, w e w il    l
e valuate th e im pact on SSA ’      s fis calm anage m e nt of th e D D S function.

In th e inte rim , w e re com m e nd th at SSA :

1. re duce PA -BD D totalfunding auth orization by $5,713,19 5 for unobl
                                                                       igate d
   funds from FY s 19 9 4 th rough 19 9 6;
Page 5 - K e nne th D . Nibal
                            i


2. im ple m e nt pol
                   icy e s tabl
                              is h ing tim e fram e s w ith in w h ich funding auth ority
   s h ould be re duce d;and

3. ins truct O ffice of D is ability pe rs onne lto adh e re to PO M S 39 506.200 and th e
      ate d pol
   re l         icy on tim e line s s .

AGENCY CO M M ENTS

SSA agre e d w ith th e finding th at Pe nns y l   vania funding auth orization h ad not be e n
adjus te d and w il  ltak e im m e diate action to re duce its funding auth orization. SSA
al s o agre e d th at th e re is no e xis ting pol
                                                 icy th at e s tabl
                                                                  is h e s w h e n adjus tm e nts
s h oul d be re duce d. SSA w il    laddre s s th e l
                                                    ack of firm proce dure s during th e ne xt
re w rite of th e PO M S. Th e ful    lte xt of SSA ’s com m e nts is s h ow n in A ppe ndix A .

O IG RESPO NSE

W e ack now l  e dge SSA ’ s pl anne d corre ctive action. A s s tate d in th e conclus ions
s e ction, O IG inte nds to re vie w th is proble m on a nationw ide bas is to inform SSA
of th e nationalim pact and as s is t in im pl                         s pe riodic D D S
                                               e m e nting th e age ncy’
auth orization funding re vie w .




                                                    Pam e l
                                                          a J. Gardine r
A PPEND ICES

                       A PPEND IX A



AUDITEE CO M M ENTS





        A -1

                                                                                  A PPEND IX B



            M A JO R REPO RT CO NTRIBUTO RS


Th is audit re port w as pre pare d by th e O ffice of Audit, FinancialM anage m e nt
Audits Te am in Bal   tim ore , unde r th e dire ction of D onal       in, D ire ctor. Audit
                                                               d Frank l
s taff incl
          ude d:


   Gal
     e Stone , Audit M anage r
   Joh n Be ach am , Auditor In Ch arge


For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral s Pub l
          ’     ic A ffairs Spe cial
                                   is t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -13-9 8-72006.




                                              B-1

                              A PPEND IX C



SSA O RGA NIZ A TIO NA LCH ART





              C-1

